APPENDIX A

MAINE SUPREME JUDICIAL COURT
Decision:
2021 ME 37
Docket:
Pen-20-215
Argued:
June 3, 2021
Decided:
July 8, 2021
Panel:

Reporter of Decisions

MEAD, GORMAN, JABAR, HUMPHREY, HORTON, and CONNORS, JJ.

STATE OF MAINE
v.
F DALY
HUMPHREY, J.
[¶1] F Daly appeals from a judgment of conviction of knowing or
intentional murder, 17-A M.R.S. § 201(1)(A) (2021), entered by the court
(Penobscot County, A. Murray, J.) after a five-day jury trial, and from the court’s
imposition of a forty-two-year sentence and denial of his motion for a new trial.
Daly argues that the court erred or abused its discretion in excluding
alternative-suspect evidence, failing to provide an adequate explanation in
setting the basic sentence, and denying his motion for a new trial, which was
based on a juror’s statements made after the conviction.1 We affirm the
judgment, the sentence, and the denial of the motion for a new trial.
Daly also contends that the court misstated the burden of proof in its jury instruction regarding
the number of witnesses called by each party. Reviewing the jury instructions in their entirety, we
discern no error. See State v. Plummer, 2020 ME 106, ¶ 15, 238 A.3d 241.
1

1a

APPENDIX A
2

I. BACKGROUND
[¶2] Based on the evidence presented at trial, the jury rationally could
have found beyond a reasonable doubt, see State v. Haag, 2012 ME 94, ¶ 17,
48 A.3d 207, that on January 7, 2018, Daly went to the victim’s residence and
shot the victim in the abdomen and the head, causing his death. After the police
learned of Daly’s confession to his girlfriend and discovered Daly’s gun hidden
in the ceiling of his apartment, Daly was charged by criminal complaint with the
victim’s murder. Daly was indicted for murder on February 28, 2018.2 He
entered a plea of not guilty.3
[¶3] In September 2019, two weeks before the start of the jury trial, the
State moved to exclude evidence of alternative suspects, asking that the court
hear outside the presence of the jury any proposed testimony regarding an
alternative suspect before admitting it in evidence. The court did not rule on
the motion in advance of trial. Instead, it ruled on objections to evidence of

The indictment initially charged that he had committed the murder “with the use of a firearm
against a person,” but that language and the citation of the statute governing sentencing for Class A,
B, and C crimes committed with use of a firearm were stricken because the use of a firearm is not an
element of the crime of knowing or intentional murder and did not affect murder sentencing.
See 17-A M.R.S. § 201(1)(A) (2021); see also 17-A M.R.S. § 1252(5) (2018), repealed and replaced by
P.L. 2019, ch. 113, §§ A-1, A-2 (emergency, effective May 16, 2019) (codified at 17-A M.R.S.
§ 1604(5)(A) (2021).
2

The completed judgment-and-commitment form incorrectly indicates that Daly pleaded guilty.
Our mandate orders the correction of this error.
3

2a

APPENDIX A
3

alternative suspects during the trial. Specifically, the court sustained the State’s
objections to questions asking the victim’s girlfriend about an incident in the
summer of 2017 involving the victim and another person. Daly argued that he
was offering evidence that the other person had stabbed the victim during the
2017 incident in order to challenge the credibility of the testimony of the
victim’s girlfriend that she had never seen the victim get into fights. He argued
that the person who purportedly stabbed the victim was an alternative suspect
who had a motive to kill the victim and was in the area at the time of the victim’s
death.

The court ruled that the evidence was not admissible as

alternative-suspect evidence and that it did not undermine the credibility of the
victim’s girlfriend unless there was evidence that she saw the fight that resulted
in the stabbing.
[¶4] Before the victim’s girlfriend was dismissed as a witness, Daly
renewed his objection to the exclusion of evidence of the earlier knife wound
the victim had suffered. He represented that the person who had purportedly
stabbed the victim had been prosecuted for the stabbing, was to begin serving
time for the resulting conviction near the time of the murder, and was in Bangor
the weekend of the victim’s death with individuals identified as “Truck” and
“Capitol” and therefore had the opportunity to murder the victim. The court

3a

APPENDIX A
4

excluded the evidence, concluding that even if Daly established those facts,
there was no reasonable connection between the person who purportedly
stabbed the victim and the crime at issue.
[¶5] On the second day of trial, the State indicated that it had learned
that, contrary to Daly’s earlier representations, the person who purportedly
stabbed the victim in 2017 had not been arrested or charged for that conduct
and had had an upcoming court appearance only for an unrelated theft charge.
The court reaffirmed its ruling that no alternative-suspect evidence regarding
that person would be admitted because it “did not meet the threshold for
relevance necessary.”
[¶6] The court also excluded a small portion of an otherwise admitted
deposition of Daly’s roommate regarding the sale of drugs by the individuals
known as Capitol and Truck because there was no reasonable connection
between either of them and the crime. Daly did not offer any additional
foundation for the involvement of either of them in the murder.

Daly’s

girlfriend did, however, later testify that Daly told her that he had visited Truck,
shown him the gun, and asked him to call Capitol just before Daly went to the
victim’s apartment and killed the victim.

4a

APPENDIX A
5

[¶7] The State presented evidence of the following to establish its case
against Daly:
• The bullets found in the victim’s head and in a pillow on his bed were
fired from the gun found in the ceiling above the closet in the apartment
where Daly resided with his girlfriend and his friend. The gun was in such
a location that it appeared it had been pushed through to that area above
the ceiling from above the suspended ceiling in the bathroom.
• On the day of the murder, just before 7:30 p.m., Daly called a friend who
knew the victim and asked for the victim’s address.
• After that phone call, Daly changed into his old glasses, put on two pairs
of gloves, and left his apartment.
• When Daly returned a half hour later, he confessed to his girlfriend that
he had “clapped” the victim by shooting him in the stomach and then the
head. He then cleaned the gun with bleach and water, bagged and hid the
gun, and later told his girlfriend that he had tossed his sneakers in a
dumpster. He bagged up his clothing. He showered and left the
apartment after asking his roommate for different clothes. Days later, he
had his roommate take out the trash bag containing his clothing.
• A convenience store’s surveillance video from the night of the murder
shows that at 6:47 p.m. Daly was wearing one set of clothing, but at
10:00 p.m. he was wearing a different set of clothing.
• A friend of Daly’s had previously seen him hide his gun in the closet or
the bathroom when a probation officer came to check the apartment.
• Daly had been aware of the bathroom ceiling as a hiding place for items.
• The victim and Daly did not get along, and the victim had hit on a
girlfriend of Daly’s in the past. During a disagreement with the victim,
Daly said to the victim, “I’m not worried about you. I’ve got something
for you.”

5a

APPENDIX A
6

• After the day of the murder, Daly became paranoid and was not acting
like himself. He repeatedly washed and bleached his gun and moved it
around the apartment. The gun was rusted when it was found.
[¶8] After the State presented its case, Daly moved for a judgment of
acquittal, and the court denied his motion. Daly called one witness and then
rested. The jury found Daly guilty.
[¶9]

After obtaining a presentence investigation report and a

psychological evaluation of Daly, the court held a sentencing hearing on July 16,
2020. The court first determined the basic sentence based on the nature and
seriousness of the crime as committed. See State v. Carrillo, 2021 ME 18, ¶ 38,
248 A.3d 193. The court found that the nature and seriousness of the crime did
not justify a life sentence. The court determined that a basic sentence of forty
to fifty years was appropriate because Daly made hurried calls to determine
where the victim lived and then quickly went to the victim’s home, with some
planning, and shot him for reasons unknown, but the facts were not as heinous
as in other cases, such as when a person was stabbed fifty times in the face, a
child was sexually abused and killed, a child was burned to death in a hot oven,
and people were burned to death in the back of a locked box truck.4

4 See State v. Hutchinson, 2009 ME 44, ¶¶ 13, 41, 969 A.2d 923 (affirming basic sentence of life
when the victim, in addition to the fatal injury, was stabbed fifty times in the face and was sexually
assaulted); State v. Wilson, 669 A.2d 766, 767-69 (Me. 1996) (affirming basic sentence of life when
the defendant had bound, gagged, sexually assaulted, and killed his eleven-year-old daughter);

6a

APPENDIX A
7

[¶10] The court then considered aggravating and mitigating factors to
determine the final sentence. See id. As aggravating factors, the court found
that the victim’s family was suffering, that Daly lacked remorse when speaking
of the crime to his girlfriend, and that Daly was “rigid, highly controlled, and
quite adept at providing a very limited scope of information about himself,”
which did “not bode well for the rehabilitative purpose of sentencing.” The
court found mitigating factors that included the lack of any significant criminal
history for Daly and his untreated trauma issues. The court determined that
the weight of the aggravating factors was “substantially similar” to the weight
of the mitigating factors. The court sentenced Daly to serve forty-two years in
prison and pay $4,650 in restitution.
[¶11]

Daly timely appealed from the judgment of conviction.

See 15 M.R.S. § 2115 (2021); M.R. App. P. 2B(b)(1). He also applied for review
of his sentence. See 15 M.R.S. § 2151 (2021). The Sentence Review Panel
granted Daly leave to appeal his sentence.

State v. Lane, 532 A.2d 144, 145-46 (Me. 1987) (affirming a judgment of conviction of murder when
the defendant trapped a child in an oven and set the oven at a high heat causing severe burning and
death); State v. De St. Croix, 2020 ME 142, ¶¶ 1-2, 16, 243 A.3d 880 (affirming a sentence of life when
the victims were locked in a box truck that the defendant set on fire).

7a

APPENDIX A
8

[¶12] While this appeal and the sentence review were pending, in
November 2020, Daly moved for a new trial on the ground of newly discovered
evidence that one of the jurors had contacted defense counsel to say that three
of the jurors had hesitated to find Daly guilty because they were not initially
convinced that Daly had not gone to the apartment of Truck and Capitol to give
one or both of them his gun before the victim was shot.5 See M.R.U. Crim. P. 33.
The juror informed counsel that the three jurors had ultimately voted to convict
because if Truck or Capitol had caused the victim’s death using Daly’s gun, “why
didn’t [Daly]’s attorneys say so?”
[¶13] Daly argued that this information justified a new trial when
considered in light of evidence that Daly told his girlfriend that he had gone to
Truck’s apartment first and had shown him the gun, asking him to call Capitol
before he left for the victim’s apartment. He argued that the juror’s statements
demonstrated that the exclusion of alternative-suspect evidence affected the
fairness of his trial. After accepting an opposing memorandum and a reply
memorandum, the court denied the motion for a new trial based on the lack of
any newly discovered evidence and the application of M.R. Evid. 606(b), which
provides that a court may not accept a juror’s affidavit as to most aspects of

5

We stayed the appeal while the motion for a new trial was pending.

8a

APPENDIX A
9

juror deliberations. The court reasoned that, even if it were permissible to
consider a juror’s affidavit regarding deliberations, the court would deny the
motion because a juror’s interest in inadmissible evidence does not render the
exclusion of that evidence erroneous. Daly timely appealed from the court’s
ruling on the motion. Upon Daly’s motions, we consolidated the appeals,
allowed supplemental briefing, and sealed the supplemental appendix
containing juror information.
II. DISCUSSION
A.

Alternative-Suspect Evidence
[¶14]

Daly challenges the constitutionality of our test for the

admissibility of alternative-suspect evidence and argues in the alternative that,
even under the existing test, his proffered alternative-suspect evidence should
have been admitted. We address each of his arguments separately.
1.

Test for the Admission of Alternative-Suspect Evidence

[¶15] Daly contends that his trial was unfair and violated the state and
federal constitutions because the court applied a test for the admission of
alternative-suspect evidence that improperly placed a burden of production
and proof on him, deprived him of the right to a jury trial on the
alternative-suspect issue, violated due process, and deprived him of the right

9a

APPENDIX A
10

to present a defense. See Me. Const. art. I, §§ 6, 6-A; U.S. Const. amend. VI; U.S.
Const. amend. XIV, § 1. Because Daly did not raise to the trial court his
contention that our test for the admission of alternative-suspect evidence
violated his state and federal constitutional rights, we review this issue for
obvious error. See State v. Proctor, 2020 ME 107, ¶ 13, 237 A.3d 896.
[¶16] “A criminal defendant is entitled to present evidence in support of
the contention that another is responsible for the crime with which he is
charged.” State v. Dechaine, 572 A.2d 130, 134 (Me. 1990). The court should
consider the effect of the proffered alternative-suspect evidence as a whole
because, as we have held, “[t]he court should allow the defendant wide latitude
to present all the evidence relevant to his defense, unhampered by piecemeal
rulings on admissibility.” State v. Conlogue, 474 A.2d 167, 172 (Me. 1984)
(quotation marks omitted).
[¶17] A defendant, by presenting such evidence, is arguing “that the State
has failed to meet its burden of proving that the defendant was the person who
committed the crime.” State v. Fournier, 2019 ME 28, ¶ 18, 203 A.3d 801. Thus,
the proffer of alternative-suspect evidence is “neither an affirmative defense
nor a justification defense.” State v. Jaime, 2015 ME 22, ¶ 31, 111 A.3d 1050.

10a

APPENDIX A
11

[¶18] The decision to offer alternative-suspect evidence “does not alter
or shift the burden of proof.” Fournier, 2019 ME 28, ¶ 18, 203 A.3d 801
(emphasis added). Thus, “the burden does not shift to the State to prove that
the alternative suspect did not commit the crime,” and “the defendant does not
have any burden to prove, by a preponderance of the evidence or otherwise,
that the alternative suspect did commit the crime.” Jaime, 2015 ME 22, ¶ 32,
111 A.3d 1050. “As in all criminal cases, the State’s burden remains the same
throughout the trial—to prove beyond a reasonable doubt all elements of the
crime charged, including that the defendant committed the crime.” Id.
[¶19] We have stated that alternative-suspect evidence is admissible if
“(1) the proffered evidence is otherwise admissible, and (2) the admissible
evidence is of sufficient probative value to raise a reasonable doubt as to the
defendant’s culpability by establishing a reasonable connection between the
alternative suspect and the crime.” Id. ¶ 34 (quotation marks omitted).
[¶20] The first part of the test calls for a court to determine the
“preliminary admissibility of the evidence” before assessing relevance and the
balancing required by M.R. Evid. 401 to 403. See Jaime, 2015 ME 22, ¶ 34,
111 A.3d 1050. Thus, the court need not reach the next step if, for example, the
proffered evidence is inadmissible hearsay, see State v. Reese, 2005 ME 87,

11a

APPENDIX A
12

¶¶ 11, 13, 877 A.2d 1090; Dechaine, 572 A.2d at 133 n.6; State v. Caulk, 543 A.2d
1366, 1371 (Me. 1988), or evidence of a prior bad act offered to prove a
person’s character for the purpose of showing that “on a particular occasion the
person acted in accordance with the character,” M.R. Evid. 404(b), see State v.
Bridges, 2003 ME 103, ¶¶ 38, 42, 829 A.2d 247.6 In the absence of admissible
evidence that the defendant is prepared to offer, “a defendant cannot be
allowed to use his trial to conduct an investigation that he hopes will convert
what amounts to speculation into a connection between the other person and
the crime.” Fournier, 2019 ME 28, ¶ 18, 203 A.3d 801 (quotation marks
omitted).
[¶21] The second part of the test amounts to a “specific application” of
“well-established rules of evidence [that] permit trial judges to exclude
evidence if its probative value is outweighed by certain other factors such as
unfair prejudice, confusion of the issues, or potential to mislead the jury.”
Holmes v. South Carolina, 547 U.S. 319, 326-27 (2006); see M.R. Evid. 401-403;
Fournier, 2019 ME 28, ¶ 18, 203 A.3d 801; State v. Boobar, 637 A.2d 1162, 1172

We first summarized the test as having two parts, with the requirement of a preliminary
admissibility determination, in State v. Mitchell, 2010 ME 73, ¶ 25, 4 A.3d 478. In support of the test,
we cited State v. Bridges, 2003 ME 103, ¶ 42, 829 A.2d 247, in which we held that an alternative
suspect’s prior bad acts, even if they had some relevance, were inadmissible evidence offered to show
the suspect’s character and establish that the suspect acted in conformity with that character. Id.
¶¶ 38-42; see M.R. Evid. 404(b).
6

12a

APPENDIX A
13

(Me. 1994); State v. Mitchell, 2010 ME 73, ¶ 33, 4 A.3d 478; State v. Kotsimpulos,
411 A.2d 79, 81 (Me. 1980).

The test for admitting a defendant’s

alternative-suspect evidence is no different than the test for admitting any
other evidence in a criminal trial, whether presented by the defendant or by the
State: in addition to being admissible under all of the other Rules of Evidence
and other sources of law, the evidence must be relevant to whether the
defendant is guilty beyond a reasonable doubt of the offense charged, M.R. Evid.
401-402,7 and even if the evidence is relevant, it may be excluded “if its
probative value is substantially outweighed by a danger of . . . unfair prejudice,
confusing the issues, misleading the jury, undue delay, wasting time, or
needlessly presenting cumulative evidence,” M.R. Evid. 403; see State v. Wyman,
2015 ME 2, ¶¶ 21-23, 107 A.3d 1134 (rejecting the defendant’s argument that
State’s evidence of cell phone records should have been excluded under M.R.
Evid. 403).
[¶22] The concerns weighing against admissibility under Rule 403—the
danger that the issues may be confused, the jury misled, the proceedings unduly

7 “Evidence is relevant if: (a) It has any tendency to make a fact more or less probable than it
would be without the evidence; and (b) The fact is of consequence in determining the action.” M.R.
Evid. 401. Relevant evidence is admissible unless a federal or state statute, another rule of evidence,
or another rule applicable in Maine courts provides otherwise. M.R. Evid. 402. “Irrelevant evidence
is not admissible.” Id.

13a

APPENDIX A
14

delayed, or time wasted—will be considered in every criminal case in which
alternative-suspect evidence is being offered. See M.R. Evid. 403; Boobar,
637 A.2d at 1172 (“The court must take into account the extent to which the
alternative perpetrator evidence is in dispute, the time required to present it,
and the extent of rebuttal evidence that it would generate, i.e., the extent that it
would result in a trial within a trial.”). Thus, the focus of a trial court’s analysis
will ultimately turn to the probative value of the proffered alternative-suspect
evidence as compared to those concerns. See id.; see also Field & Murray, Maine
Evidence § 401.3 at 100 (6th ed. 2007) (stating that if alternative-suspect
evidence “is of little direct probative force, or the inference of another
perpetrator speculative, exclusion is likely to be upheld on grounds of lack of
relevance under Rules 401 and 403 or as collateral under Rule 403”). For these
reasons, a trial court must consider whether otherwise admissible evidence
should be excluded because it lacks “sufficient probative value to raise a
reasonable doubt as to the defendant’s culpability by establishing a reasonable
connection between the alternative suspect and the crime.” Jaime, 2015 ME 22,
¶ 34, 111 A.3d 1050 (quotation marks omitted).
[¶23] As we have held, the defendant need not “clearly link[] the
alternative suspect to the crime,” and need only proffer evidence that

14a

APPENDIX A
15

demonstrates “a reasonable connection between the alternative suspect and
the crime.”8 Id. (quotation marks omitted). To determine whether the evidence
demonstrates a reasonable connection between the alternative suspect and the
crime, a trial court must consider whether a fact finder could reasonably view
the evidence as creating a reasonable doubt as to the identity of the person who
committed the criminal acts at issue. See id. If no fact finder could reasonably
view the proposed alternative-suspect evidence as sufficient to raise
reasonable doubt about guilt, the evidence is merely an invitation to
speculation, which would defeat the purposes of Rules 401 to 403.
[¶24] A trial court may therefore exclude evidence that another person
had the motive, intent, and opportunity to commit a crime when the proffered
evidence “is too speculative or conjectural or too disconnected from the facts of
the case against the defendant” to be reasonably connected to the crime. State
v. Le Clair, 425 A.2d 182, 187 (Me. 1981); see also State v. Ledger, 444 A.2d 404,

8 Like the Court of Appeals of New York, we have rejected the ostensibly heightened “clear link”
standard for alternative-suspect evidence because it “merely reinforce[s] the notion that remote
evidence of a third party’s culpability—though relevant—will not be sufficiently probative to
outweigh the risk of trial delay, undue prejudice or jury confusion.” People v. Primo, 753 N.E.2d 164,
168 (N.Y. 2001). Because that standard “may be easily misread as suggesting that evidence of
third-party culpability occupies a special or exotic category of proof,” id., courts in Maine must apply
the Maine Rules of Evidence, which require them to consider the “probative value [of the evidence]
to raise a reasonable doubt as to the defendant’s culpability by establishing a reasonable connection
between the alternative suspect and the crime.” State v. Cruthirds, 2014 ME 86, ¶ 22, 96 A.3d 80
(emphasis added and quotation marks omitted); see M.R. Evid. 401-403.

15a

APPENDIX A
16

416 (Me. 1982) (“[A] defendant may introduce evidence tending to show that
another person committed or harbored an intent, motive, and opportunity to
commit the crime of which that defendant is charged, if such evidence is not too
remote in time or too weak in probative value under M.R. Evid. 403.”).
[¶25] Thus, our two-part test is in fact a shorthand articulation of the
application of the Rules of Evidence that, in step two, draws the attention of the
trial court to the crux of the decision that it must make in applying Rules 401 to
403 to determine, in its discretion, whether alternative-suspect evidence will
be admitted. We have summarized how to apply the Rules of Evidence in this
particular context

because,

unlike

with discrete determinations

of

admissibility, the alternative-suspect evidence must be considered as a whole
to prevent the piecemeal admission of evidence in a way that could waste time,
improperly lead to the litigation of factual disputes that are not material to the
case, or invite improper speculation or conjecture. See Fournier, 2019 ME 28,
¶ 18, 203 A.3d 801; Boobar, 637 A.2d at 1172; Le Clair, 425 A.2d at 187.
[¶26]

Daly’s argument on appeal that our test imposes an

unconstitutional burden of production on a defendant by requiring that
alternative-suspect evidence be relevant and admissible under the Rules of

16a

APPENDIX A
17

Evidence is tantamount to an argument that jurors should be free to engage in
speculation and conjecture. We reject that proposition.
[¶27] The court did not commit obvious error—and therefore did not
violate Daly’s rights to due process, to present a defense, and to a jury trial—in
applying evidentiary rules that place no burden of production or proof on a
defendant and keep from a jury evidence that is “too speculative or conjectural
or too disconnected from the facts of the case against the defendant,” Le Clair,
425 A.2d at 187, to make its probative value outweigh the potential that jurors
would be misled or confused, or have their time wasted on what could devolve
into “a trial within a trial,” Boobar, 637 A.2d at 1172. See M.R. Evid. 401-403.
2.

Review of the Court’s Exclusion of Alternative-Suspect Evidence

[¶28] Daly contends that the court should have admitted relevant
evidence of an alternative suspect, who was affiliated with Capitol and Truck
and who had purportedly stabbed the victim the year before the murder,
because the offer of proof established a reasonable connection between the
suspect and the crime. He also contends that, with the alternative-suspect
evidence, he could have argued to the jury that Daly’s roommate and girlfriend
got the gun and information about the gunshot wounds from Capitol or Truck,
with whom they trafficked in drugs, and framed Daly using that information.

17a

APPENDIX A
18

[¶29] We review the court’s exclusion of alternative-suspect evidence
for clear error or an abuse of discretion, as we do any Rule 401 or 403
determination. See State v. Waterman, 2010 ME 45, ¶¶ 35, 37, 995 A.2d 243;
State v. Hassan, 2013 ME 98, ¶ 24, 82 A.3d 86. Because there is no dispute that
witnesses could have provided otherwise admissible testimony about the facts
proffered by Daly, our analysis is focused on the second part of the test for
admitting alternative-suspect evidence—whether Daly’s proffered evidence
established “a reasonable connection between the alternative suspect and the
crime.” Jaime, 2015 ME 22, ¶ 34, 111 A.3d 1050 (quotation marks omitted).
That determination is reviewed for an abuse of discretion. See Fournier, 2019
ME 28, ¶ 17, 203 A.3d 801.
[¶30] We have provided some specific examples of evidence that could
establish a reasonable connection between an alternative suspect and the
crime: (1) a confession by the alternative suspect, (2) physical evidence linking
the suspect to the crime, (3) evidence of mistaken identity, (4) the alternative
suspect’s motive or opportunity to commit the crime, (5) evidence of the
alternative suspect’s commission of a similar crime with the same signature
features, and (6) the alternative suspect’s suspicious behavior following the
crime. Mitchell, 2010 ME 73, ¶ 29, 4 A.3d 478.

18a

APPENDIX A
19

[¶31] When we have held that a court erred in excluding alternative
suspect evidence, we have done so because a reasonable connection was
evident on the face of the record without resort to speculation. For instance, in
State v. Jaime, there was evidence that the alternative suspect showed up at a
friend’s house “on the night of the murder with fist-sized bloodstains on his
shirt, seeking help to conceal a violent, bloody, fatal assault,” and that the
alternative suspect admitted that he was at the scene of the crime on the night
of the murder, had occasionally used drugs with the victim, and had
accompanied the defendant in scattering the victim’s remains in a stream.
Jaime, 2015 ME 22, ¶ 36, 111 A.3d 1050.
[¶32] In contrast, in other cases such as State v. Cruthirds, 2014 ME 86,
96 A.3d 80, and State v. Mitchell, 2010 ME 73, 4 A.3d 478, we affirmed the
exclusion of alternative-suspect evidence as insufficiently connected to the
crime. In Cruthirds, “the only connection between [the alternative suspect] and
the attack on the victim was established in the victim’s testimony that (1) he
was her baby’s father; and (2) he told her in a Facebook message on the evening
of the assault that he had come to her door earlier, knocked, and left when no
one answered.” 2014 ME 86, ¶ 24, 96 A.3d 80. We contrasted that evidence
with the evidence linking the defendant to the crime: “the victim’s testimony,

19a

APPENDIX A
20

the recording of her 911 call, and the recording of [an eyewitness]’s police
interview all explicitly named [the defendant] as the assailant, and DNA
evidence corroborated those statements.” Id. ¶¶ 3, 24; see also Holmes, 547 U.S.
at 331 (holding that a rule governing alternative-suspect evidence must include
consideration of the strength of both the prosecution’s evidence against the
defendant and the defendant’s proffered evidence about the alternative
suspect).
[¶33] In Mitchell, there was more evidence than in Cruthirds regarding a
possible alternative suspect, but we still affirmed the trial court’s exclusion of
that evidence. 2010 ME 73, ¶ 39, 4 A.3d 478. There, the State’s case against
the defendant included evidence that (1) the defendant’s DNA was recovered
from the nails of the victim’s right hand; (2) a latent print examiner identified
a footprint at the scene that “was of the same size, had the same outsole design,
and came from the same manufacturing mold as [the defendant]’s shoe”;
(3) the defendant was upset because he thought that he should have inherited
the home in which the victim lived; and (4) the defendant drove a car that was
olive green with a tan roof and maroon primer paint on the driver’s side,
consistent with a mail carrier’s testimony that she saw a car with a maroon

20a

APPENDIX A
21

body and tan top in the victim’s driveway on the day of the murder. Id. ¶¶ 3-5,
10, 15-17.
[¶34] The defendant proffered otherwise admissible alternative-suspect
evidence regarding a neighbor of the victim who (1) also wore a size-ten shoe
and had been seen in shoes that looked similar to the defendant’s; (2) had a
beige jacket with a wool collar and sometimes wore a scarf, similar to the
description provided by the mail carrier that a man in the victim’s driveway
was wearing a tan coat and gray wool scarf; (3) had previously been seen in a
suede, camel-colored coat that was not seen again after the murder; (4) had
beaten another woman in the past; (5) owned a two-tone green automobile;
(6) had met the victim and referred to her as a slut; (7) provided a false alibi
and seemed nervous after the murder; (8) had features similar to those
depicted in a composite drawing produced with aid from the mail carrier;
(9) had previously fought with a girlfriend, who was the victim’s best friend,
and the victim had taken her friend’s side; and (10) could not be ruled out as a
source of certain fingerprints. Id. ¶¶ 10, 19; see id. ¶¶ 36-37.
[¶35] We held that, given the lack of any physical evidence connecting
the alternative suspect with the crime, the evidence regarding the alternative
suspect “provide[d] only weak proof of motive or propensity, and only

21a

APPENDIX A
22

moderately probative evidence of opportunity, mistaken identity, or
suspicious post-crime behavior.” Id. ¶ 38. We held that the evidence “did not
rise above the level of speculation and did not establish a reasonable
connection between the neighbor and the crime.” Id. ¶ 38.
[¶36] We also affirmed the exclusion of alternative-suspect evidence and
a judgment of conviction when the excluded evidence would have showed only
that an alternative suspect was involved in drug dealing with the victim and
knew that the victim had been loaned money within two days before the victim
was killed, Waterman, 2010 ME 45, ¶ 39, 995 A.2d 243, and where the evidence
would establish only that the alternative suspect had a “familiarity with the
general vicinity in which the body was found, and that there had been a fleeting
contact between the alternative perpetrator and the victim on the date of her
disappearance,” Boobar, 637 A.2d at 1172.
[¶37] Here, Daly proffered evidence that (1) a person associated with
Truck and Capitol had stabbed the victim in 2017 and (2) the person was about
to begin serving time in jail or prison. Evidence was admitted that, on the day
of the murder, Truck resided in an apartment that was near the victim’s
apartment. Daly’s girlfriend also testified that Daly told her he had visited
Truck before going to the victim’s apartment and shooting the victim. Daly did

22a

APPENDIX A
23

not proffer evidence that Truck, Capitol, or the person who purportedly
stabbed the victim had been in possession of the murder weapon, had been in
contact with the victim, or had done or said anything before or after the victim’s
death that would suggest their involvement in the killing.
[¶38] In contrast to this attenuated connection between alternative
suspects and the crime, there was significant testimonial and physical evidence
connecting Daly with the crime, as set forth in detail above. See supra ¶ 7. Daly
challenged the State’s physical evidence primarily by cross-examining its
investigator about whether the police had reviewed all video of the comings
and goings at his residence between the time of the murder and the date when
the gun was discovered. Cf. Holmes, 547 U.S. at 322-23, 330-31 (holding that
evidence of another person’s confession could not be excluded on the basis of
the strength of the State’s physical evidence when the value of that evidence
had been challenged based on theories that the evidence had been
contaminated and police were framing the defendant).
[¶39] Nonetheless, without a proffer of any evidence suggesting that any
of the three purported alternative suspects had ever been to the victim’s
residence, or that any of them had visited Daly’s residence following the murder
and therefore could have hidden the gun in Daly’s apartment, any connection

23a

APPENDIX A
24

between those individuals and the crime requires conjecture and speculation.
Cf. State v. Robinson, 628 A.2d 664, 667 (Me. 1993) (affirming the exclusion of
alternative-suspect evidence when, although there was evidence that the
alternative suspect may have conveyed to another person a threat against the
victim, no admissible evidence was proffered to place the alternative suspect in
the area of the victim’s home at the time of the crime). The court did not abuse
its discretion in excluding the evidence as insufficient to establish a reasonable
connection to the crime because the proffered evidence would have been only
weakly probative of any other suspect’s motive or opportunity to commit the
crime. See Mitchell 2010 ME 73, ¶ 38, 4 A.3d 478. A fact finder could not,
without resorting to speculation, view the evidence as creating a reasonable
doubt regarding the identity of the person who murdered the victim. See Jaime,
2015 ME 22, ¶ 34, 111 A.3d 1050.
B.

Sentencing
[¶40] Daly argues that the court’s explanation of its reasons for setting

the basic period of imprisonment was inadequate and that the matter should
be remanded for resentencing.
[¶41] A person who has committed the crime of murder “must be
sentenced to imprisonment for life or for any term of years that is not less than

24a

APPENDIX A
25

25.” 17-A M.R.S. § 1251(1) (2018).9 A court employs a two-step process in
sentencing a defendant for murder: “First, the court determines the basic term
of imprisonment based on an objective consideration of the particular nature
and seriousness of the crime. Second, the court determines the maximum
period of incarceration based on all other relevant sentencing factors, both
aggravating and mitigating, appropriate to that case, including the character of
the offender and the offender’s criminal history, the effect of the offense on the
victim and the protection of the public interest.” Carrillo, 2021 ME 18, ¶ 38,
248 A.3d 193 (quotation marks omitted).
[¶42] At issue here is the first step of the court’s sentencing. We review
the basic sentence set by the court “de novo for a misapplication of legal
principles.” Id. ¶ 41. In setting the basic sentence in a murder case, the
information upon which the sentencing court relies must be factually reliable
and relevant to satisfy the requisites of due process. See id. ¶ 44.
[¶43] “Because the extent of a judge’s discretion is so broad, and because
the difficulty of the task makes it one that warrants precision and focus, the
process used by the sentencing court to reach the sentence imposed must be

This sentencing statute has been repealed and replaced without substantive change. See P.L.
2019, ch. 113, §§ A-1, A-2 (emergency, effective May 16, 2019) (codified at 17-A M.R.S. § 1603(1)
(2021)).
9

25a

APPENDIX A
26

explained to the sentencing court’s audience, including the reviewing court.”
State v. Stanislaw, 2011 ME 67, ¶ 15, 21 A.3d 91. “Articulation of the process is
. . . the only method that allows for meaningful appellate review of the
sentence.” Id.
[¶44] Here, the court explained, based on facts that had support in the
trial record, its reasons for setting a basic sentence in the range of forty to
forty-five years. The court found that Daly had planned the murder and had
shot the victim twice for reasons that may never be known, but the facts were
not so severe as to warrant a term of years beyond the range of forty to
forty-five years. The court’s articulation of its reasoning was sufficient for
purposes of appellate review.
[¶45] The court did not misapply principle in establishing the basic
sentence. Cf. State v. Gaston, 2021 ME 25, ¶ 35, 250 A.3d 137 (affirming a basic
sentence of thirty-five years when the murder was “an act of domestic violence
that was impulsive rather than premeditated”); Carrillo, 2021 ME 18, ¶¶ 41, 44,
148 A.3d 193 (affirming a basic sentence of fifty years when a mother actively
participated in months of physical abuse that resulted in the death of her child);
State v. Leng, 2021 ME 3, ¶ 13, 244 A.3d 238 (affirming a basic sentence of fifty
to fifty-five years when the murder was an intentional crime of domestic

26a

APPENDIX A
27

violence involving multiple gunshots when the victim’s children were in the
home and saw their mother’s body); State v. Nichols, 2013 ME 71, ¶¶ 10, 32,
72 A.3d 503 (affirming a basic sentence of thirty-five to forty years when the
defendant committed a premeditated act in shooting his wife while one of the
couple’s children was in the home); State v. Dwyer, 2009 ME 127, ¶¶ 34-36,
985 A.2d 469 (affirming a basic sentence of sixty-five to seventy-five years
when the defendant lured a pregnant woman to a location where he bound,
robbed, and sexually assaulted her before killing her). Premeditation-in-fact is
an aggravating factor that can justify even a life sentence, see State v. De St. Croix,
2020 ME 142, ¶¶ 9-12, 243 A.3d 880 (citing cases), and the court did not
misapply sentencing principles in setting a basic sentence of forty to forty-five
years for Daly, who had planned the shooting.
C.

Motion for a New Trial
[¶46] Daly argues that the court should have granted his motion for a

new trial based on newly discovered evidence regarding the jury’s
deliberations.

He argues that the rule of evidence pertaining to jury

deliberations should not be applied in the context of his motion for a new trial
and that the court’s ruling violated his rights of due process and was unjust.

27a

APPENDIX A
28

[¶47] When the trial court has denied a defendant’s motion for a new
trial based on newly discovered evidence, we “review the court’s findings of fact
for clear error and its determination of whether the defendant has met the
necessary elements for an abuse of discretion.” State v. Peaslee, 2020 ME 105,
¶ 18, 237 A.3d 861 (quotation marks omitted). Because of the public interest
in maintaining the integrity and finality of judgments, a defendant seeking a
new trial based on newly discovered evidence must show, by clear and
convincing evidence, that
(1) the evidence is such as will probably change the result if a new
trial is granted;
(2) it has been discovered since the trial;
(3) it could not have been discovered before the trial by the
exercise of due diligence;
(4) it is material to the issue; and
(5) it is not merely cumulative or impeaching, unless it is clear that
such impeachment would have resulted in a different verdict.
Id. (quotation marks omitted). Rulings on the admissibility of evidence are
reviewed for clear error or abuse of discretion. State v. Sargent, 656 A.2d 1196,
1199 (Me. 1995).
[¶48] The Maine Rules of Evidence include a provision pertaining to the
admissibility of evidence regarding jurors during any “inquiry into the validity

28a

APPENDIX A
29

of a verdict or indictment.” M.R. Evid. 606(b). Specifically, with exceptions that
do not apply here, see M.R. Evid. 606(b)(2),10 a juror may not, as part of such an
inquiry, testify about “[a]ny statement made or incident that occurred during
the jury’s deliberations,” the “effect of anything on that juror’s or another
juror’s vote,” or “[a]ny juror’s mental processes concerning the verdict or
indictment.” M.R. Evid. 606(b)(1). “The court may not receive a juror’s affidavit
or evidence of a juror’s statement on these matters.” M.R. Evid. 606(b)(1).
[¶49] This rule embodies the pre-rules holding of Patterson v. Rossignol
that a “reluctant juror’s statement that she agreed to the verdict through fear
and coercion and that the announced unanimous verdict was not her free and
deliberate act cannot serve as proper basis for an offer of proof in support of a
motion for a new trial.”11 245 A.2d 852, 856 (Me. 1968); see State v. Leon,

“A juror may testify about whether: (A) Extraneous prejudicial information was improperly
brought to the jury’s attention; or (B) An outside influence was improperly brought to bear on any
juror.” M.R. Evid. 606(b)(2).
10

11

The policy considerations that undergird Rule 606 include
(1) the need for stability of verdicts; (2) the need to conclude litigation and desire to
prevent any prolongation thereof; (3) the need to protect jurors in their
communications to fellow jurors made in the confidence of secrecy of the jury room;
(4) the need to save jurors harmless from tampering and harassment by disappointed
litigants; and (5) the need to foreclose jurors from abetting the setting aside of
verdicts to which they may have agreed reluctantly in the first place or about which
they may in the light of subsequent developments have doubts or a change of attitude.

State v. Leon, 2018 ME 70, ¶ 8, 186 A.3d 129 (alteration omitted) (quotation marks omitted).

29a

APPENDIX A
30

2018 ME 70, ¶¶ 8-9, 186 A.3d 129. “It has been the settled doctrine in this State
that affidavits or testimony of jurors will not be received to show any
impropriety in the conduct of the jury in the jury room, or an improper mode
of arriving at their verdict . . . .” Patterson, 245 A.2d at 856.
[¶50] The law governing motions for a new trial based on newly
discovered evidence clearly contemplates that evidence of jury deliberations is
inadmissible.

Newly discovered evidence is that which could have been

presented at trial if it had been discovered in time, and jury deliberations,
which occur after the presentation of evidence, are not probative of the
elements of the charged crime or crimes. See Peaslee, 2020 ME 105, ¶ 18, 237
A.3d 861; State v. Gatcomb, 478 A.2d 1129, 1130-31 (Me. 1984).
[¶51] Here, the motion for a new trial called for an inquiry into the
validity of the verdict, and the affidavit from counsel in this case presents an
offer of proof of precisely the type of juror statement that Rule 606(b)(1)
precludes. See M.R. Evid. 606(b)(1). The court did not err or abuse its
discretion in excluding from consideration “information about [the juror’s] own
thought process and the interchange among the jurors in the jury room as they
considered the evidence.” Leon, 2018 ME 70, ¶ 12, 186 A.3d 129.

30a

APPENDIX A
31

[¶52] Moreover, even if the information contained in counsel’s affidavit
were admissible, that information does not undermine the fairness of Daly’s
trial. See Peaslee, 2020 ME 105, ¶ 18, 237 A.3d 861 (holding that newly
discovered evidence requires a new trial only when the defendant establishes,
by clear and convincing evidence, that, among other things, “the evidence is
such as will probably change the result if a new trial is granted”). As the court
properly instructed, jurors “must not speculate on what other witnesses might
have been called or what other evidence might have been presented.”
See Alexander, Maine Jury Instruction Manual § 8-4 at 8-8 (2020-2021 ed.
2020). In ruling on the motion for a new trial, the court correctly characterized
Daly’s argument as suggesting “that any ruling on the admissibility of evidence
which might have interested a juror should support a new trial”—an argument
at odds with the purposes of the Maine Rules of Evidence. See Leon, 2018 ME
70, ¶¶ 8-9, 186 A.3d 129. Because the court did not err or abuse its discretion
in excluding the alternative-suspect evidence, it also did not err or abuse its
discretion in denying the motion for a new trial, which was based on a juror’s
interest in that properly excluded evidence.

31a

APPENDIX A
32

The entry is:
Judgment affirmed.
Remanded for the
correction of the judgment-and-commitment
form to indicate that Daly pleaded not guilty.

Rory A. McNamara, Esq. (orally), Drake Law, LLC, York, for appellant F Daly
Aaron M. Frey, Attorney General, and Donald W. Macomber, Asst. Atty. Gen.
(orally), Office of the Attorney General, Augusta, for appellee State of Maine
Penobscot County Unified Criminal Docket docket number CR-2018-286
FOR CLERK REFERENCE ONLY

32a

APPENDIX B

40
1

Alexander?

2

THE COURT:

3

MS. ZAINEA:

4

THE COURT:

5
6

Yes, it is.
Yes, we would ask for that.
All right.

All right.

Let's take a

very short recess.
(Court was recessed at 10:08 a.m. and was

7

reconvened at 10:17 a.m.)

8

THE COURT:

Anything before the jury's brought in?

9

MS. BOGUE:

No, Your Honor.

10
11

MS. FOLSTER:

No, thank you.

(The jury returned to the courtroom at

12

10:17 a.m.)

13

THE COURT:

14

Members of the jury, we are reaching the final stage

Please be seated.

15

of the trial.

16

argument of counsel, it is my duty to instruct you about

17

the law that applies to this case.

18

Now that you've heard the evidence and the

You must follow the law as stated in these

19

instructions and apply the law to the facts as you find

20

the facts from the evidence.

21

decide the case considering only the evidence that has

22

been presented in the trial.

23

It is your sworn duty to

Before I give you the substantive instructions, let

24

me state some cautions.

First of all, I will be giving

25

you a series of instructions.

Do not single out any one

33a

APPENDIX B

41
1

instruction alone as stating the law.

2

the instructions as a whole.

3

Instead, consider

In your consideration, attach no significance to the

4

order in which the instructions are given.

5

consider them all as being of equal importance, of equal

6

priority, in applying them to this case.

7

particularly so because I will be giving you some

8

instructions in writing in addition to the instructions

9

that I am giving to you orally.

10
11

You must

This is

The written instructions

and the oral instructions are equally important.
Additionally, nothing that I say in these

12

instructions and nothing that I -- that I may have said

13

or done while presiding at the trial -- no expression on

14

my face, nothing -- should be taken as any indication

15

that I have any opinion about the facts of the case.

16

facts are for you and for you alone to decide based on

17

the evidence that's been presented.

18

The

Now, you're going to determine the facts by

19

analyzing the evidence.

Before I tell you what the

20

evidence is, let me tell you what it is not.

21

particular, the opening and clo -- statements and the

22

closing arguments of the attorneys are not evidence.

23

their arguments, the attorneys have suggested to you

24

particular ways that you may want to analyze the

25

evidence, and they've argued various conclusions and

In

In

34a

APPENDIX B

42
1

inferences that you may want to draw from the evidence,

2

but the opening and closing statements themselves are not

3

evidence.

4

If, once you begin your deliberations, your memory

5

of the evidence is different from your -- from their

6

memory, it is your memory that controls.

7

Counsel have quite properly referred to some of the

8

governing rules of law in their arguments.

However, if

9

you think there is any difference between the law stated

10

by counsel and the law stated in my instructions, you

11

must follow the instructions that I am giving to you.

12

You should give no consideration to the fact that

13

objections were made during the trial.

14

you earlier, the lawyers have an obligation to make sure

15

that the trial conforms to the law, and they fulfill that

16

obligation by making objections.

17

As I indicated to

The fact that the defendant, F Daly, chose not to

18

testify is not evidence.

Under our law, he has the

19

absolute right to remain silent.

20

take the witness stand and testify, and no presumption of

21

guilt may be raised and no inference of any kind may be

22

drawn from the defendant's choice not to testify.

23

law never imposes upon a defendant in a criminal case the

24

burden or duty of calling any witnesses or producing any

25

evidence.

He does not have to

The

35a

APPENDIX B

43
1

You must decide this case based on the evidence that

2

was presented to you.

3

other witnesses might have been called or what other

4

evidence might have been presented.

5

excuse me -- and you must draw no inference, favorable or

6

unfavorable, by speculation about what else might have

7

been presented to you.

8

from the evidence presented to you whether the facts at

9

issue have been proven beyond a reasonable doubt.

10

You must not speculate on what

And you must not --

You must decide the case only

What, then, is the evidence?

The evidence in this

11

case consists of the testimony of the witnesses,

12

including the testimony by deposition, and the exhibits

13

that have been received into evidence -- that is, the

14

evidence -- the exhibits that I admitted into evidence,

15

and the stipulations presented to you.

16

As you will recall, a stipulation means simply that

17

both sides accept the truth of a particular proposition

18

or fact.

19

need for any evidence apart from the stipulation.

20

must accept the stipulations as fact and give them

21

whatever weight you think they deserve.

22

Since there is no disagreement, there is no
You

You will decide the significance of evidence based

23

on what that evidence has to add to the issues in the

24

case without regard to who produced the evidence.

25

If I sustained an objection to any question or

36a

APPENDIX B

44
1

exhibit, or if I directed you to disregard any question,

2

answer, or exhibit, you must disregard that question,

3

answer, or exhibit, and you must not speculate about

4

what, if anything, the answer or exhibit might have added

5

to the case.

6

You must consider only the evidence in the case in

7

reaching your verdict, but, in your consideration of the

8

evidence, you are not limited solely to what you see and

9

hear as the witnesses testify.

You may draw from the

10

facts that you find have been proven such reasonable

11

inferences as you believe are justified in light of your

12

own common sense and personal experience.

13

There are two types of evidence you may use to find

14

the facts, direct evidence and circumstantial evidence.

15

Direct evidence is direct proof of a fact such as

16

testimony by a witness about what that witness saw,

17

heard, or did.

18

evidence -- that is, proof of one or more facts from

19

which you can find or infer that another fact exists even

20

though it has not been proven directly.

21

Circumstantial evidence is indirect

You must consider both kinds of evidence.

The law

22

permits you to give equal weight to both, but you must

23

decide how much weight to give to any evidence.

24
25

When there are several possible theories to explain
the happening of an event, the one that you adopt does

37a

APPENDIX B

45
1

not have to exclude all others.

2

experience with people and events in deciding the

3

possibility of inaccuracy or ambiguity.

4

You are to use your

Your verdict may be based entirely on circumstantial

5

evidence, entirely on direct evidence, or on a

6

combination of both, remembering, of course, that the

7

State has the burden to prove each element of the offense

8

charged beyond a reasonable doubt.

9

A case is not decided according to which side

10

presents more witnesses.

The testimony of a single

11

witness is sufficient to prove any fact and would justify

12

a verdict in accordance with such testimony even if a

13

number of witnesses may have testified to the contrary

14

if, after consideration of all of the evidence, you

15

believe that the single witness is more accurate and more

16

truthful.

17

The test is not which side brings the greater number

18

of witnesses or presents the greater quantity of evidence

19

but which witness and which evidence you find is most

20

accurate and otherwise trustworthy in determining whether

21

or not the State has met its burden of proof considering

22

all of the evidence in the case.

23

One of the most important things you will have to do

24

in analyzing the evidence is to determine the

25

credibility, that is, the believability, of the

38a

APPENDIX B

46
1

witnesses.

2

common sense, meaning whatever all of you have learned

3

through your various life experiences.

4

judges of whether to believe each witness and of the

5

importance of the testimony of each witness.

6

You will determine credibility by using your

You are the

Carefully consider all of the testimony, the

7

circumstances under which each witness testified, and

8

everything in evidence which tends to show whether a

9

witness should be believed or not.

10

Consider each witness's intelligence, motive, and

11

state of mind, and how they appeared while testifying.

12

Consider the witness's ability to observe the matters

13

they testified about and whether they appear to have an

14

accurate recollection of those matters.

15

interest a witness may have in the case and the extent to

16

which, if at all, each witness is either supported or

17

contradicted by other evidence in the case.

18

Consider any

You have heard evidence of prior convictions of

19

witnesses.

This is a factor for you to consider only in

20

evaluating the believability of the witness.

21

Inconsistencies or discrepancies in the testimony of

22

a witness or between the testimony of different witnesses

23

may or may not cause you to question such testimony.

24

or more persons witnessing an incident or a transaction

25

may see or hear it differently, and innocent mistakes in

Two

39a

APPENDIX B

47
1

memory sometimes happen.

2

discrepancy, always consider whether it relates to an

3

important issue or an unimportant detail and whether the

4

discrepancy results from innocent error or intentional

5

falsehood.

6

testimony of each witness such -- such significance, if

7

any, as you think it deserves.

8

In weighing the effect of any

After making your own judgment, give the

The testimony of a witness may be discredited or

9

impeached by evidence that the witness previously made a

10

statement which is not consistent with present testimony

11

if you first find that the witness made a prior

12

inconsistent statement.

13

find there was a prior inconsistent statement, has been

14

admitted solely on the issue of the believability of the

15

witness and may not be considered as proving the truth of

16

anything in the prior statement.

Such prior statement, if you

17

Witnesses who are presented as expert witnesses due

18

to their education and experience in some area may state

19

their opinions as to matters in which they profess to be

20

ex -- an expert.

21

their opinion.

22

presented and give them such weight as you think they

23

deserve.

24
25

They may also state the reasons for
You should consider the expert opinions

In deciding the weight to give to an expert
excuse me.

Excuse me.

--

In deciding the weight to give to

40a

APPENDIX B

48
1

an expert's testimony and opinion, consider whether or

2

not the -- an expert's opinion is based upon sufficient

3

education and experience, or if the facts or reasons

4

given in support of the opinion are sound, or if the

5

opinion may be outweighed by other evidence.

6

witness's testimony should be considered like any other

7

testimony.

8

testimony you believe or do not believe and how much

9

weight any such testimony should be given.

10

An expert

You alone decide how much of any witness's

The State has charged that the crime in question was

11

committed on or about January 7, 2018.

The State does

12

not have to prove that the crime was committed on that

13

exact date.

14

reasonable doubt that F Daly committed the crime on a

15

date reasonably near the date charged.

It is enough if the State proves beyond a

16

Intent or mental state ordinarily cannot be proven

17

directly because there is rarely direct evidence of the

18

operations of the human mind, but you may infer a

19

person's intent or state of mind from the surrounding

20

circumstances.

21

any act done or omitted by the person and all other facts

22

in evidence which indicate state of mind.

23

consider it reasonable to infer and find that a person

24

intends the natural and probable consequences of acts

25

knowingly done or o -- or knowingly omitted.

You can consider any statement made and

You may

As I have

41a

APPENDIX B

49
1

said, it is entirely up to you to decide what facts to

2

find from the evidence.

3

Now I'm going to give you some written instructions.

4

Chris, perhaps you could help with that.

5

You do not have to read if you don't -- along with

6

me if you don't want to.

But, if you decide to read

7

along with me, please don't get ahead of me, and please

8

don't get behind me.
(Typewritten jury instructions were passed out

9
10

to the jurors by the jury officer.)

11

THE COURT:

All right.

Presumption of innocence,

12

burden of proof.

13

innocent.

14

trial with a clean slate, with no evidence against him.

15

This presumption of innocence alone is sufficient to

16

acquit the defendant unless you decide that the

17

defendant's guilt is proven beyond a reasonable doubt

18

after careful consideration of all of the evidence in the

19

case.

20

The law presumes a defendant to be

The defendant, although accused, begins the

The State is not required to prove guilt beyond all

21

possible doubt or to a mathematical certainty.

22

is one of reasonable doubt.

23

The test

A reasonable doubt is just what the words imply.

24

is a doubt based upon reason and common sense.

25

doubt based upon mere guess, surmise, or bare

It

It is not

42a

APPENDIX B

50
1

possibility.

2

without bias, prejudice, or interest, after carefully

3

weighing all of the evidence, would entertain as to the

4

guilt of the accused.

5

It is a doubt which a reasonable person,

Put another way, proof beyond a reasonable doubt is

6

proof of guilt sufficient to convince you, the jury, that

7

the charge is almost certainly true.

8

has the burden to prove each element of the offense

9

charged beyond a reasonable doubt.

10
11
12

The State always

The defendant in this case, F Daly, is charged with
the crime of intentional or knowing murder.
The law of the State of Maine provides that a person

13

is guilty of murder if that person intentionally or

14

knowingly causes the death of another human being.

15

In order for the State to prove beyond a reasonable

16

doubt that F Daly is guilty of the crime of intentional

17

or knowing murder, the State must convince you beyond a

18

reasonable doubt of the following three facts:

19

that Israel Lewis is dead; second, that Mr. Daly caused

20

his death, which means that the death of Israel Lewis

21

would not have occurred but for the conduct of Mr. Daly;

22

and, third, that Mr. Daly was acting either intentionally

23

or knowingly when he caused the death.

24
25

First,

A person causes death intentionally if it is that
person's conscious object to cause death.

A person

43a

APPENDIX B

51
1

causes death knowingly if that person is aware that it is

2

practically certain that the person's conduct will cause

3

death.

4

The State does not have to prove that Mr. Daly acted

5

with premeditation.

The -- the intent to cause death may

6

arise in the instant before the death-producing conduct.

7

However, you may consider any evidence of premeditation,

8

if you find such exists, as it bears upon whether

9

Mr. Daly acted intentionally.

10

The State also does not have to prove motive.

11

Motive -- that is, the reasons why a person acted as he

12

or she did -- is not an element of a criminal offense.

13

Evidence of the presence or absence of motive is a matter

14

for you to consider along with all of the other evidence

15

in determining whether the State has proven intentional

16

or knowing conduct beyond a reasonable doubt.

17

To summarize, if you find that the State has proven

18

beyond a reasonable doubt, one, that Israel Lewis is

19

dead, and, two, that F Daly caused his death, and, three,

20

that Mr. Daly acted either intentionally or knowingly

21

when he caused the death, then you should find F Daly

22

guilty of murder.

23

However, if you find that the State has not

24

established beyond a reasonable doubt, one, that Israel

25

Lewis is dead, or that the State has failed to establish

44a

APPENDIX B

52
1

beyond a reasonable doubt that F Daly caused his death,

2

or that the State has failed to establish beyond a

3

reasonable doubt that F Daly acted either intentionally

4

or knowingly when he caused the death, then you must find

5

F Daly not guilty of murder.

6
7
8
9

If you'll just flip the written instructions over, I
have a few more instructions to give you orally.
It is your sworn duty as jurors to decide these -to decide the facts free from any passion, prejudice,

10

sympathy, or bias whatsoever.

11

businesslike.

12

possible you will decide credibility and you will decide

13

the facts.

14

I have just given it to you, and then you will return and

15

give us your verdict.

16

You have a duty to be

In as businesslike and analytical a way as

You will then apply those facts to the law as

The verdict you reach must represent the considered

17

judgment of each juror.

18

is necessary that each juror agree.

19

unanimous.

20

jurors to consult with one another and to deliberate with

21

a view to reaching an agreement if you can do so without

22

sacrificing your individual judgment.

23

In order to return a verdict, it

All 12 jurors must agree.

Your verdict must be
It is your duty as

Each of you must decide this case for yourself, but

24

do so only after an impartial consideration of the

25

evidence with your fellow jurors.

45a

APPENDIX B

53
1

In the course of your deliberations, keep an open

2

mind.

Do not hesitate to reexamine your own views and

3

change your opinion if convinced it is erroneous, but do

4

not give up your honest belief as to the weight or effect

5

of evidence solely because of the opinion of your fellow

6

jurors or for the mere purpose of returning a verdict.

7

You are not partisans.

8

of the facts.

9

or not the State has proven the charge beyond a

You are judges.

You are judges

Your sole interest is to determine whether

10

reasonable doubt.

11

Jess --

12

THE CLERK:

Mm-hmm.

13

THE COURT:

-- do you have the file?

14

THE CLERK:

I do have the file.

15

THE COURT:

Do you have the seating chart?

16

THE CLERK:

You want the updated one?

17

THE COURT:

Thank you.

18

Juror 188, you will be the foreperson, and I need to

19

give you a few special instructions.

Before I do that,

20

however, I must excuse the alternate jurors.

21

Two of you were chosen as alt -- alternate jurors to

22

take the place of any juror who could not complete his or

23

her obligations as a juror and had to drop out.

24

intentionally don't identify you until this moment.

25

I

It looks like everybody is well and ready to

46a

APPENDIX B

54
1

deliberate.

2

96 -- 2 -- 248 -- yes -- and 96, you are our alternate

3

jurors in this case.

4

ready to deliberate, I'm going to be able to excuse you.

5

Thank you for listening carefully to the evidence.

6

though you won't be deciding this case, you've performed

7

a valuable public service.

8

trials without jurors like you.

9
10
11

And, therefore, Jurors No. 248 and Juror No.

Because all of the other jurors are

Even

It's impossible to have jury

So, I know, Juror No. 96, your service is now
complete because you were a September juror.
Juror 248, I'm happy to excuse you from further jury

12

service if you want, but you are on the October jury

13

panel.

14

like to return back or if you'd like to be excused.

15

Either one is fine with me.

16
17

So just let your court officer know whether you'd

So why don't you two gather your personal
belongings, and I'll see counsel at sidebar.

18

JUDICIAL MARSHAL:

19

THE COURT:

20

You may be seated.

22

THE COURT:

23

MS. ZAINEA:

25

Counsel.
Thank you.

BENCH CONFERENCE

21

24

All rise for the jury.

Anything further from the State?
Did you give the missing witness

instruction?
THE COURT:

I did.

47a

APPENDIX B

55
1

MS. ZAINEA:

Okay.

2

MS. BOGUE:

We missed it.

3

THE COURT:

You missed it?

4

Anything further from the defense?

5

MR. SILVERSTEIN:

Yes.

Okay.

I have a suggestion, Judge.

6

You provided the number of witnesses instruction as I

7

understand it's presented in Alexander.

8

taking issue with the way it's presented in Alexander.

9

But, as applied in this case, it's clear that the

So I'm not

10

circumstances presented would permit a conviction only if

11

the jury accepts the testimony of Ms. Preston.

12

suggesting that the jury can rely upon a single witness,

13

as opposed to numbers of witnesses either way, I think it

14

necessary that you supplement that instruction by

15

inserting again that they have to find beyond a

16

reasonable doubt that that witness is -- that that

17

witness provided testimony that they find -- upon which

18

they choose to accept.

19

And in

So, I think that the Alexander instruction in a case

20

in which there are multiple conflicting, if you will,

21

witnesses is fine, but in a case such as this, where the

22

State's presented really one single witness upon which

23

conviction must rest, that that instruction should be

24

supplemented by reference to the standard.

25

MS. ZAINEA:

The State would be opposed to the Court

48a

APPENDIX B

56
1

highlighting the testimony of one particular witness,

2

which the defense is really asking the Court to do.

3

Court has given the general instructions as it relates to

4

the credibility of witnesses and the assessments that

5

jurors can make of any one or -- or not any of them, I

6

mean, but to highlight Kayla Preston in this case would

7

thereby suggesting to the Court -- almost as if the Court

8

is commenting on credibility of Kayla Preston.

9

THE COURT:

The

I don't think it's appropriate for me

10

to pick out one particular witness and comment on that

11

particular witness.

12

I will -- I may change my remaining remarks and talk

13

a little bit about reasonable doubt a little.

14

that in once more, but I'm not going to pick out one --

15

one witness.

16

MR. SILVERSTEIN:

All right.

I may put

Just for the record

17

and clarity, I'm not asking that you use the name Preston

18

or Kayla, but I am suggesting that in providing that

19

instruction it should guide the jury that they are to

20

make the credibility determinations to a level of proof

21

beyond a reasonable doubt.

22

THE COURT:

23

MS. ZAINEA:

Thank you.

Do you want to say something else?
I was just going to say that I think if

24

we're -- I mean, the Court has instructed that they are

25

to assess the credibility of witnesses just as they would

49a

APPENDIX B

57
1

in their everyday lives and has given them an outline for

2

them pursuant to the instruction what tools they can use

3

should they choose to and what tools they may not use

4

should they choose to.

5
6
7

THE COURT:

Okay.

Thank you.

(The bench conference was concluded.)
THE COURT:

Madam Foreperson, you are similar to the

8

chair of a committee.

You have one vote.

It's worth the

9

vote of each of your fellow jurors, but it is your

10

responsibility to run the deliberations in the jury room

11

in a businesslike fashion.

12

I want to instruct all of the jurors that when

13

you're in the jury room there is no obligation on the

14

part of any juror to say anything at all if he or she

15

does not want to.

16

is to vote on the verdict.

17

who wants to speak has the right to be completely and

18

fully heard by his or her fellow -- fellow jurors, and

19

it's the responsibility of the foreperson to make sure

20

that each juror has that opportunity.

21

Each juror's only absolute obligation
On the other hand, each juror

During your deliberations, you will evaluate the

22

credibility of the witnesses.

You'll evaluate the

23

evidence, and you will determine whether or not the State

24

has proven each of the three elements that I've mentioned

25

to you beyond a reasonable doubt.

50a

APPENDIX B

58
1

If, during your deliberations, you want to

2

communicate with me, you'll need to send me a note,

3

signed by one of you, and you'll give it to your court

4

officer.

5

the door.

6

on the door and give the jury officer your note.

7

Your court -- your jury officer will be outside
If you need to communicate with me, just knock

I'm not suggesting you will need to communicate with

8

me, but, if you do need to communicate with me, that's

9

the way you'll do it.

10

If you do need to communicate with me, just limit

11

yourself to whatever it is that you would like from me,

12

and then -- and, also, be as precise as you can about

13

what it is that you would like.

14

If you do send any -- any notes, do not write in the

15

note or tell anyone, including me, how you stand on the

16

question of whether or not the State has proven the case

17

beyond a reasonable doubt.

18

I'll either respond in writing, or we'll come back into

19

the courtroom and I will give you further instructions.

20

If you do send me a note,

When you have a verdict, knock on the door.

21

the jury officer that you have a verdict.

22

the jury officer what your verdict is.

23

have reached a verdict.

24

get me.

25

the courtroom.

Tell

Do not tell

Just say that you

The jury officer will come and

We will -- we will then assemble back here in
At that time, when you come in, everyone

51a

APPENDIX B

59
1

else will be seated.

The jurors will remain standing.

2

Either the clerk or I will ask the foreperson, Madam

3

Foreperson, something to the effect, has the jury agreed

4

upon a verdict?

5

your answer is yes, the clerk or I will say, what say

6

you, Madam Foreperson, is the defendant at the bar guilty

7

or not guilty of the charge of murder?

8

respond to that question.

9

verdict will be announced.

And you will either say yes or no.

If

And you will

That's the way the jury
And then we'll turn to the

10

remaining juror -- jurors and say something to the

11

effect:

12

correctly reported your verdict, you will say yes.

13

Obviously, if the foreperson has not correctly reported

14

your verdict, you will say no -- you will say no.

15

So say you all?

And if the foreperson has

So, with that, the Court will now be in recess for

16

the jury's deliberations, and we'll send the exhibits in

17

to you in just a minute.

18

All right.

(The jury entered the jury to commence

19

deliberations at 10:47 a.m.)

20

THE COURT:

21
22
23
24
25

All right.

Counsel, do you want to

agree upon the exhibits?
MS. ZAINEA:

Judge, you don't send in the firearm or

the demonstrative aids; is that correct?
THE COURT:

I'm not inclined to send in

demonstrative aids, unless you both agree that I should.

52a

